LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 26, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-122:

DAVID THOMPSON, AARON DOWNING AND JIM CRAWFORD V.
HEATHER HEBDON, IN HER OFFICIAL CAPACITY AS THE EXECUTIVE
DIRECTOR OF THE ALASKA PUBLIC OFFICES COMMISSION, ET AL.

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for Amicus Curiae The Institute for Free Speech, on August 26, 2019, I caused
service to be made pursuant to Rule 29 on the following counsel for the Petitioners and
Respondents:
PETITIONERS:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

RESPONDENTS:
Laura Frances Fox
State of Alaska Department of Law
1031 W. 4th Avenue, Suite 200
Anchorage, AK 99501
(907) 269-5275
laura.fox@alaska.gov

This service was effected by depositing three copies of the Brief of Amicus Curiae
The Institute for Free Speech in Support of Petitioners in an official "first class mail"
receptacle of the United States Post Office as well as by transmitting a digital copy via
electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

